No. 19-605

IN THE

STATE OF ARIZONA,
Petitioner,
v.
PHILIP JOHN MARTIN,
Respondent.
On Petition for a Writ of Certiorari
to the Arizona Supreme Court
BRIEF IN OPPOSITION

Aaron M. Demke
Legal Advocate Attorney
Jill L. Evans
Deputy Legal Advocate
Attorney
MOHAVE COUNTY LEGAL
ADVOCATE OFFICE
316 N. 5th Street
Kingman, AZ 86402
(928) 814-4557

Sarah E. Harrington
Counsel of Record
Erica Oleszczuk Evans
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
sh@goldsteinrussell.com

QUESTION PRESENTED
The State of Arizona charged Philip Martin with
first-degree murder. After a trial, the jury returned a
verdict of guilty on second-degree murder, indicating
that it was unable to reach agreement on the charge of
first-degree murder. The State did not seek, and the
trial court did not declare, a mistrial as to the greater
offense. As the State has conceded, the jury’s conviction of Martin on second-degree murder precluded the
State from retrying Martin for first-degree murder at
that point and would have done so after an unsuccessful appeal. But Martin succeeded on appeal, overturning his conviction on second-degree murder. On remand, the State again indicted and tried Martin for
first-degree murder. The question presented is:
Whether the Fifth Amendment’s bar on double
jeopardy prohibits retrial of a defendant on a greater
offense when a jury convicts him on a lesser-included
offense while indicating that it could not reach agreement on the greater offense, no mistrial is declared as
to the greater offense, and the defendant successfully
appeals his conviction on the lesser-included offense.

ii
RELATED PROCEEDINGS
Mohave County Superior Court:
State v. Philip Martin, CR-2012-01326
(Nov. 8, 2013) (judgment and sentence)
State v. Philip Martin, CR-2012-01326
(Aug. 1, 2016) (judgment and sentence)
Arizona Court of Appeals:
State v. Philip Martin, 1 CA-CR 13-0839
(Dec. 23, 2014) (memorandum decision)
State v. Philip Martin, 1 CA-CR 16-0551
(June 19, 2018) (opinion)
Arizona Supreme Court:
State v. Philip Martin, CR-15-0034-PR
(July 10, 2015) (order denying review of State’s
petition for review)
State v. Philip Martin, CR-15-0034-PR
(Aug. 9, 2019) (opinion)

iii
TABLE OF CONTENTS
QUESTION PRESENTED ........................................... i
RELATED PROCEEDINGS........................................ ii
TABLE OF AUTHORITIES ....................................... iv
STATEMENT OF THE CASE..................................... 1
THE PETITION SHOULD BE DENIED ................. 11
I.

The Decision Below Does Not Implicate A
Conflict Warranting This Court’s Review .......... 11

II. The Decision Below Does Not
Warrant Review .................................................. 22
CONCLUSION .......................................................... 26

iv
TABLE OF AUTHORITIES
Cases
Arizona v. Washington,
434 U.S. 497 (1978) ........................................ passim
Blueford v. Arkansas,
566 U.S. 599 (2012) ........................................ 4, 6, 23
Brazzel v. Washington,
491 F.3d 976 (9th Cir. 2007) .................................. 21
Cleary v. State,
23 N.E.3d 664 (Ind. 2015) ................................ 14, 15
Commonwealth v. Carlino,
865 N.E.2d 767 (Mass. 2007) ................................. 20
Green v. United States,
355 U.S. 184 (1957) ........................................ passim
Kennedy v. Washington,
986 F.2d 1129 (7th Cir. 1993) ................................ 19
Ex parte Lange,
85 U.S. (18 Wall.) 163 (1874) ................................... 2
People v. Aguilar,
317 P.3d 1255 (Colo. App. 2012) ............................ 14
People v. Fields,
914 P.2d 832 (Cal. 1996) ........................................ 13
Price v. Georgia,
398 U.S. 323 (1970) ........................................ passim
Richardson v. United States,
468 U.S. 317 (1984) ........................................ passim
State v. Glasmann,
349 P.3d 829 (Wash. 2015) .................. 17, 18, 21, 22
State v. Kent,
678 S.E.2d 26 (W. Va. 2009) .................................. 20

v
State v. LeBlanc,
924 P.2d 441 (Ariz. 1996) ................................... 6, 10
State v. Martinez,
905 P.2d 715 (N.M. 1995) ...................................... 12
State v. O’Kelley,
822 P.2d 122 (N.M. Ct. App. 1991) ........................ 12
Terry v. Potter,
111 F.3d 454 (6th Cir. 1997) .................................. 20
United States v. Allen,
755 A.2d 402 (D.C. 2000) ................................. 13, 14
United States v. Bordeaux,
121 F.3d 1187 (8th Cir. 1997) .................... 15, 16, 17
United States v. Bordeaux,
92 F.3d 606 (8th Cir. 1996) .................................... 16
United States v. Ham,
58 F.3d 78 (4th Cir. 1995) ...................................... 19
United States v. Logan,
144 U.S. 263 (1892) .................................................. 5
United States v. Perez,
22 U.S. (9 Wheat.) 579 (1824) .................................. 5
United States v. Williams,
449 F.3d 635 (5th Cir. 2006). ................................. 17
United States v. Wood,
958 F.2d 963 (10th Cir. 1992) ................................ 20
United States ex rel. Hetenyi v. Wilkins,
348 F.2d 844 (2d Cir. 1965) ................................... 19
United States ex rel. Jackson v. Follette,
462 F.2d 1041 (2d Cir. 1972). .................... 18, 19, 20

vi
Constitutional Provisions
U.S. Const. amend. V................................................... 1
Double Jeopardy Clause ................................ passim
Statutes
Ariz. Rev. Stat. § 13-411 .............................................. 7
Ariz. Rev. Stat. § 13-1105(A)(1)................................... 6
Other Authorities
Stephen M. Shapiro et al.,
Supreme Court Practice (11th ed. 2019)................ 22

STATEMENT OF THE CASE
The Fifth Amendment to the United States Constitution provides that “[n]o person shall . . . be subject
for the same offence to be twice put in jeopardy of life
or limb.” U.S. Const. amend. V. This case involves
application of that prohibition on “double jeopardy”
when a jury convicts a defendant of a lesser-included
offense and returns no verdict on a greater offense; the
jury is discharged with no declaration of mistrial or
finding of manifest necessity; the conviction on the
lesser offense is overturned on appeal; and the government attempts to retry the defendant on the greater
offense on which he was not convicted in the first trial.
1. Resolution of the question presented requires
determining which of two distinct lines of this Court’s
decisions applies in these circumstances.
a. i. The first line of cases began with Green v.
United States, in which a defendant was charged with
first-degree murder but was convicted of the lesser-included offense of second-degree murder. 355 U.S. 184,
185-186 (1957). In that case, the jury was instructed
that it could find the defendant guilty of either firstdegree murder or second-degree murder; in convicting
on the latter offense, the jury was silent as to the former. Ibid. After the defendant had his conviction for
second-degree murder overturned on appeal, the
United States tried him again on first-degree murder,
over his objection. Id. at 186. This Court held that the
Double Jeopardy Clause prohibited the government
from retrying the defendant on first-degree murder.
Id. at 198.

2
The Court explained in Green that “[t]he constitutional prohibition against ‘double jeopardy’ was designed to protect an individual from being subjected to
the hazards of trial and possible conviction more than
once for an alleged offense.” 355 U.S. at 187. The
Court noted that the prohibition on double jeopardy
has deep roots in the common law, which “not only prohibited a second punishment for the same offence, but
it went further and forbid a second trial for the same
offence, whether the accused had suffered punishment
or not, and whether in the former trial he had been
acquitted or convicted.” Ibid. (quoting Ex parte Lange,
85 U.S. (18 Wall.) 163, 169 (1874)). “The underlying
idea, one that is deeply ingrained in at least the AngloAmerican system of jurisprudence,” the Court explained, “is that the State with all its resources and
power should not be allowed to make repeated attempts to convict an individual for an alleged offense”
because doing so subjects a defendant “to embarrassment, expense and ordeal,” “compel[s] him to live in a
continuing state of anxiety and insecurity,” and “enhanc[es] the possibility that even though innocent he
may be found guilty.” Id. at 187-188.
Applying those principles to the case at hand, the
Court held that the United States was not permitted
to retry the defendant on first-degree murder. 355
U.S. at 188-198. The Court explained that “it is not
even essential that a verdict of guilt or innocence be
returned for a defendant to have once been placed in
jeopardy so as to bar a second trial on the same
charge.” Id. at 188. Acknowledging that “the jury was
dismissed without returning any express verdict on”
first-degree murder, and noting that the Court “need
not” view “the jury’s verdict as an implicit acquittal on

3
the charge of first degree murder,” the Court concluded that the jury “was given a full opportunity to
return a verdict and no extraordinary circumstances
appeared which prevented it from doing so.” Id. at
190-191. The Court emphasized that “[a]fter the original trial, but prior to his appeal, it is indisputable that
[the defendant] could not have been tried again for
first degree murder” and that “even after appealing
the conviction of second degree murder he still could
not have been tried a second time for first degree murder had his appeal been unsuccessful.” Id. at 191. The
Court held that the defendant did not waive his right
to double-jeopardy protection with respect to the
charge of first-degree murder by successfully appealing his conviction for second-degree murder. Id. at
191-192. “When a man has been convicted of second
degree murder and given a long term of imprisonment,” the Court explained, “it is wholly fictional to
say that he ‘chooses’ to forego his constitutional defense of former jeopardy on a charge of murder in the
first degree in order to secure a reversal of an erroneous conviction on the lesser offense.” Ibid. The Court
held instead that “[t]he law should not, and in our
judgement does not, place the defendant in such an incredible dilemma.” Id. at 193.
ii. The Court later reaffirmed the principles of
Green in Price v. Georgia, where a jury convicted the
defendant of the lesser-included offense of voluntary
manslaughter but made no determination on the
greater charged offense of murder. 398 U.S. 323, 324
(1970). The Court held that the defendant could not
be retried for the greater offense on remand from a
successful appeal of his conviction on the lesser offense. Id. at 327-332. Discussing Green, the Court

4
made clear that the holding of Green did not depend
exclusively on the fiction that a jury’s silence on a
greater offense should be viewed as an “implicit acquittal” on that offense. Id. at 328. Rather, the holding of Green depended on the broader (and independent) proposition that a defendant’s “jeopardy on the
greater charge had ended when the first jury ‘was
given a full opportunity to return a verdict’ on that
charge and instead reached a verdict on the lesser
charge.” Id. at 329 (quoting Green, 355 U.S. at 191)
(emphasis added).
The Court in Price made clear that, although the
defendant’s successful appeal meant that he faced
“continuing jeopardy” with respect to the charge on
which he was convicted, the Court had “consistently
refused to rule that jeopardy for an offense continues
after an acquittal, whether that acquittal is express or
implied by a conviction on a lesser included offense
when the jury was given a full opportunity to return a
verdict on the greater charge.” 398 U.S. at 329 (footnote omitted). More recently, this Court has stated
that in Green and Price, “we held that the Double Jeopardy Clause is violated when a defendant, tried for a
greater offense and convicted of a lesser included offense, is later retried for the greater offense.” Blueford
v. Arkansas, 566 U.S. 599, 608 (2012).
b. The second line of cases is best exemplified by
Richardson v. United States, in which the Court addressed whether a defendant could be retried for an
offense after a mistrial was declared in his first trial
because of a jury deadlock. 468 U.S. 317 (1984). The
Court explained that “the protection of the Double
Jeopardy Clause by its terms applies only if there has
been some event, such an acquittal, which terminates

5
the original jeopardy.” Id. at 325. Looking to history,
the Court noted that it had “been established for 160
years . . . that a failure of the jury to agree on a verdict
was an instance of ‘manifest necessity’ which permitted a trial judge to terminate the first trial and retry
the defendant because ‘the ends of public justice would
otherwise be defeated.’” Id. at 323-324 (quoting
United States v. Perez, 22 U.S. (9 Wheat.) 579, 580
(1824)). Explaining that the Court had “constantly adhered to the rule that a retrial following a ‘hung jury’
does not violate the Double Jeopardy Clause,” id. at
324 (citing United States v. Logan, 144 U.S. 263, 297298 (1892)), the Court held that “a trial court’s declaration of a mistrial following a hung jury is not an
event that terminates the original jeopardy to which
[a defendant] was subjected.” Id. at 326. “The Government, like the defendant,” the Court reasoned, “is
entitled to resolution of the case by verdict from the
jury, and jeopardy does not terminate when the jury is
discharged because it is unable to agree.” Ibid.
In a related line of cases, this Court has made
clear that the bar for declaring a mistrial before a verdict is rendered is a high one. The Court explained in
Arizona v. Washington, for example, that a prosecutor
bears a “heavy” “burden” in seeking such a mistrial,
and “must demonstrate ‘manifest necessity’ for any
mistrial declared over the objection of the defendant.”
434 U.S. 497, 505 (1978). The Court explained that
such a showing can be made when the trial court believes that a jury is unable to reach a verdict and the
court exercises its discretion to declare a mistrial. Id.
at 509-511.
2. In October 2012, respondent Philip John Martin shot and killed his neighbor on Martin’s property

6
with a single shotgun blast. Pet. App. 2, 57. Martin
admitted to the police that he shot his neighbor. Id. at
2, 21. Martin explained to the police and later testified
that the neighbor ignored Martin’s orders to leave his
property and that he believed the neighbor was armed
and intended to harm him. Ibid.
a. Petitioner State of Arizona charged Martin
with premeditated first-degree murder and tried him
before a jury. Pet. App. 2-3; Ariz. Rev. Stat. § 131105(A)(1). When charging a defendant with a greater
offense and a lesser-included offense, States are generally free to choose between “reasonable efforts” instructions and “acquittal first” instructions. See
Blueford, 566 U.S. at 612 (Sotomayor, J., dissenting);
State v. LeBlanc, 924 P.2d 441, 442 (Ariz. 1996). In
the former category, a jury is instructed that it may
consider the lesser-included offense only after it either
unanimously agrees to acquit on the greater offense or
is unable to agree on a verdict on the greater offense
after making “reasonable efforts” to do so. LeBlanc,
924 P.2d at 442. In the latter category, a jury is instructed that it may consider the lesser-included offense only after reaching a unanimous agreement to
acquit on the greater charge. Ibid.
Arizona is a “reasonable efforts” State. LeBlanc,
924 P.2d at 442-444. The trial court therefore delivered the following standard jury instruction on the
lesser-included offense of second-degree murder:
You may find the defendant guilty of the less
serious crime if all of you agree that the state
has failed to prove the defendant guilty of the
more serious crime beyond a reasonable
doubt, or if after reasonable efforts you are

7
unable to agree unanimously on the more serious crime, and you do all agree that the
state has proven the defendant guilty of the
less serious crime.
Pet. App. 3. The jury convicted Martin of second-degree murder. Id. at 3, 60. On the verdict form, the
jury indicated that it was “[u]nable to agree” on the
first-degree murder charge. Id. at 3, 59. No mistrial
was declared, and no assessment of whether there was
a manifest necessity for a mistrial on any count was
made. Instead, the jury was discharged, and the court
sentenced Martin to 16 years in prison. Id. at 3, 10,
69-70.
b. Martin appealed, and the court of appeals reversed. Pet. App. 42-52. The court held that the trial
court erred by failing to instruct the jury on the crimeprevention defense provided under state law. Id. at
43, 45-48; Ariz. Rev. Stat. § 13-411. The court thus remanded for a new trial. Pet. App. 52. The Arizona
Supreme Court denied the State’s petition for review.
Id. at 53-54.
c. On remand, the trial court granted the State’s
motion to retry Martin on first-degree murder, rejecting Martin’s argument that doing so would violate the
Constitution’s prohibition on double jeopardy. Pet.
App. 30-41. The court acknowledged that Martin “was
already put on trial for First Degree Murder and
should not be required to continue to ‘run the gauntlet’”; wondered why the State should “be allowed another opportunity to convict [Martin] for First Degree
Murder when [it] already had the opportunity to do so,
and failed”; and noted that if Martin had not successfully appealed his conviction, “he could not have be[en]
retried for First Degree Murder.” Id. at 40. The court

8
nevertheless granted the State’s motion because in its
view the first jury’s notation that it could not reach a
verdict on first-degree murder foreclosed the possibility that it had expressly or impliedly acquitted Martin
of that charge. Id. at 33-41.
After a retrial, the jury found Martin guilty of
first-degree murder, and Martin was sentenced to life
in prison. Pet. App. 4, 55-57.
d. Martin appealed, and the court of appeals affirmed. Pet. App. 19-29. The court relied on reasoning
similar to the trial court’s, explaining that “[t]he first
jury clearly and formally stated it was unable to agree
on the greater charge of first-degree murder after it
was instructed that it could proceed to consider the
lesser charge if after reasonable efforts it was unable
to unanimously agree on first-degree murder.” Id. at
20.
e. The Arizona Supreme Court granted Martin’s
petition for review and reversed. Pet. App. 1-18.
Relying on this Court’s decision in Green and in
subsequent cases, the Arizona Supreme Court held
that the Double Jeopardy Clause prevented the State
from retrying Martin on the charge of first-degree
murder. Pet. App. 6-13. The court explained that, as
in Green, “the jury [in this case] considered both the
greater and lesser offense and ‘refused to find [the defendant] guilty’ of the greater charge.” Id. at 6 (quoting Green, 355 U.S. at 190) (second brackets in original). “[I]n such circumstances,” the court concluded,
“jeopardy ended when the jury ‘was given a full opportunity to return a verdict and no extraordinary circumstances appeared which prevented it from doing
so.’” Id. at 6-7 (quoting Green, 355 U.S. at 191). “The

9
rule of Green,” the court explained, is that “where the
state had a full and fair opportunity to try the defendant on a charge and the jury refused to convict, jeopardy terminates when the jury is dismissed following
its verdict, and therefore the state may not place the
defendant in jeopardy again for that same charge.” Id.
at 7.
The Arizona Supreme Court rejected the State’s
argument that “it did not have a full and complete opportunity to convict Martin of first-degree murder in
the first trial because the jury indicated it was unable
to agree to a verdict on that charge.” Pet. App. 9. The
court explained that “the State fully prosecuted the
first-degree murder charge but was unable to persuade the jury to convict.” Ibid. “Such a situation,
where the jury is unable to agree on one charge and
convicts on the lesser offense,” the court explained,
“cannot alone justify a finding of ‘extraordinary circumstances’ or ‘genuine deadlock’ required to meet the
state’s heavy burden to continue jeopardy.” Ibid. The
court concluded that the State had not “demonstrated
a ‘manifest necessity’ to support the trial court declaring a mistrial and discharging the jury because it was
deadlocked.” Id. at 9-10 (quoting Washington, 434
U.S. at 509). “The absence of that situation here,” the
court held, “distinguishes this case from Richardson.”
Id. at 10. “Here,” the court reasoned, “the jury was not
discharged because of a mistrial based on jury deadlock, but only after it had returned a complete verdict
on the original indictment.” Ibid.
Finally, the Arizona Supreme Court explained
that the State’s practice of using “a unitary process for
jury consideration of greater and lesser-included of-

10
fenses,” Pet. App. 10, “is calculated to avoid the deadlock jury that is a necessary predicate for a mistrial
and for a second trial on the greater offense,” id. at 11.
Under that practice, “following a full and complete
presentation of the evidence, the jury will first consider the greater offense, and if it is not convinced the
evidence supports a guilty verdict, it will consider the
lesser-included offense.” Ibid. That system, the court
explained, “‘adequately protect[s]’” the State’s “‘interest in a full and fair adjudication of the charged offense.’” Ibid. (quoting LeBlanc, 924 P.2d at 443). The
court thus concluded that, “as a necessary corollary in
applying Green and Washington, when a verdict is
reached on a lesser-included offense in accord with”
the instructions set out in LeBlanc, “jeopardy terminates for the greater offense and the defendant may
not be retried on the greater offense.” Ibid.
The Arizona Supreme Court also rejected the
State’s argument that “it was Martin who extended
jeopardy by deciding to appeal his second-degree murder conviction.” Pet. App. 12. The court explained
that the State had conceded “that if Martin had not
appealed his conviction for second-degree murder,
double jeopardy would have prohibited a new trial on
the first-degree murder charge.” Ibid. And the court
rejected the State’s argument that, “[b]y appealing a
conviction on a lesser-included offense,” Martin had
“restart[ed] the jeopardy clock on a greater charge,”
noting that this Court had expressly rejected such an
argument in Green. Id. at 13.
Holding that “trying Martin a second time for
first-degree murder under the circumstances here violated his constitutional right to be free from double
jeopardy,” Pet. App. 13, the Arizona Supreme Court

11
vacated the court of appeals’ decision and remanded
the case to the trial court “to consider in the first instance whether to reduce Martin’s conviction to the
lesser-included offense, or, if Martin can show prejudice, to order a new trial,” id. at 14.
THE PETITION SHOULD BE DENIED
The Supreme Court of Arizona correctly held that
the Double Jeopardy Clause bars retrial of Martin on
first-degree murder because his first jury was afforded
a full opportunity to convict him of that offense but
chose to convict him of the lesser-included offense of
second-degree murder instead, and because no mistrial was declared on the greater offense. That decision conflicts with only one decision of another state
court of last resort. This Court’s review of that narrowest-possible conflict on a question that does not appear to arise with any frequency is unwarranted.
I.

The Decision Below Does Not Implicate A
Conflict Warranting This Court’s Review.

Arizona errs in arguing (Pet. 18-30) that there is
a widespread conflict among state courts of last resort
and federal courts of appeals about how double-jeopardy principles apply in the circumstances presented
here. Most of the decisions Arizona contends are in
conflict with the decision below involved a different set
of circumstances that are not present here. Even a superficial review of the cases reveals that the decision
below implicates only the narrowest-possible conflict
with only one other state court of last resort. This
Court’s immediate intervention to resolve that nascent
and narrow conflict is unwarranted.
A. Arizona contends that the Arizona Supreme
Court’s decision conflicts with decisions of at least one

12
federal court of appeals and five other state courts of
last resort. In all but one of those jurisdictions, however, there is no reason to believe that the outcome of
this case would be any different than it was in the Arizona Supreme Court. The decision below does not
conflict with any of those decisions.
1. Arizona errs in contending (Pet. 22-25) that
decisions of the supreme courts of New Mexico and
California, as well as the court of appeals of the District of Columbia conflict with the decision below.
None of those decisions conflict because, unlike in this
case, the trial court in each of those cases declared a
mistrial on the greater offense, bringing the case
within the exception to double jeopardy under Richardson v. United States, 468 U.S. 317 (1984)—and distinguishing those cases from this one, in which no mistrial was declared on any charge.
First, in State v. Martinez, the jury convicted the
defendant of the lesser charge of aggravated battery
but was unable to reach a verdict on the greater charge
of attempted murder. 905 P.2d 715, 716 (N.M. 1995).
At the request of the defendant, the trial court declared a mistrial on the greater offense. Id. at 717; see
State v. O’Kelley, 822 P.2d 122, 123 (N.M. Ct. App.
1991), cited in Martinez, 905 P.2d at 717) (retrial on
greater charge allowed when mistrial had been declared on that charge). That decision has no bearing
on the question presented here, where no mistrial was
declared and the Arizona court’s decision depended on
that fact. Pet. App. 9-10. In any case, the so-called
greater and lesser charges in Martinez were charged
as separate offenses, not as a greater and lesser-included offense—and the court declined to decide
whether they could have been charged as such. 905

13
P.2d at 717-718. There is no question that a defendant
can be retried in those circumstances—i.e., when he
has been convicted of one offense and a mistrial declared on a separate offense. The decision below therefore does not conflict with any decision of the Supreme
Court of New Mexico.
Second, the same is true of People v. Fields, in
which a jury convicted the defendant of lesser-included offenses but could not reach agreement on a
greater offense. 914 P.2d 832, 834-835 (Cal. 1996). After inquiring with the jury about its deliberations, the
trial court determined that the jury was hopelessly
deadlocked on the greater charges and, with no objection from either party, declared a mistrial on those
charges. Id. at 835. The defendant was then retried
and convicted on the greater charges—and the California Supreme Court held that the retrial did not violate
double jeopardy, id. at 835-838, although it did violate
a state statute, id. at 840-843. That court therefore
had no occasion to consider the situation presented
here, where the court neither declared a mistrial nor
made a finding of deadlock—and, in the words of the
Arizona court, the state did not “demonstrate[] a ‘manifest necessity’ to support the trial court declaring a
mistrial and discharging the jury.” Pet. App. 9-10
(quoting Arizona v. Washington, 434 U.S. 497, 509
(1978)).
Third, the D.C. Court of Appeals also considered
a case in which a trial court declared a mistrial—at
the defendant’s request—on a greater offense after a
jury convicted the defendant of a lesser offense but was
deadlocked on the greater. United States v. Allen, 755
A.2d 402, 403 (D.C. 2000). By its own terms, that
court’s holding is limited to circumstances in which a

14
“jury expressly states that it is unable to reach agreement on [a] greater offense . . . and the trial court has
declared a mistrial as to the greater offense after the
jury finds the defendant guilty of the lesser offense.”
Id. at 404. The court distinguished cases like Green,
explaining that “this is not a case where, as in Green,
supra, ‘the jury was dismissed without returning any
express verdict on the charge at issue without [the defendant’s] consent.’” Id. at 409 (quoting Green v.
United States, 355 U.S. 184, 191 (1957)) (brackets
omitted). “By requesting a mistrial,” the court explained, the defendant “consented to the jury’s dismissal,” bringing the case squarely within the rule of
Richardson. Ibid.; see ibid. (“Double jeopardy principles generally have not prevented retrial of a defendant in state courts where the defendant was retried on
a greater offense after the jury was unable to reach a
verdict and the trial court declared a mistrial at the
defendant’s request.”). Because those circumstances
are not present here, that decision does not conflict
with the decision below.1
2. Arizona also relies on the Supreme Court of
Indiana’s decision in Cleary v. State, 23 N.E.3d 664
(Ind. 2015). The court in that case considered whether
a defendant could be retried on a greater offense after
a jury convicted him of a lesser offense but deadlocked
on the greater offense, and the trial court declined to
enter a verdict on any offense, instead ordering a new
trial. Id. at 667. The state supreme court held that
1

Arizona’s citation (Pet. 25 n.4) of the Colorado Court of Appeals’ decision in People v. Aguilar, is similarly misguided because there, too, the trial court declared a mistrial on the greater
charge after the jury could not reach a verdict on that charge. 317
P.3d 1255, 1257 (Colo. App. 2012).

15
the new trial on all counts did not violate the state constitution’s prohibition on double jeopardy or state statutory provisions because the retrial was simply a continuation of the original jeopardy from the first trial.
Id. at 673. Whether that decision was correct or not,
it plainly decided a different question than is presented here—because, as the Supreme Court of Indiana emphasized, no judgment of conviction was entered on any charge in Cleary. Id. at 668-669. Here,
in contrast, a judgment of conviction on the lesser
charge was entered against Martin and he was sentenced accordingly. Although the Supreme Court of
Indiana’s decision does not reflect that a mistrial was
formally declared in Cleary, the trial judge’s decision
to grant a new trial on all counts as a result of the
jury’s deadlock on the greater offense, rather than entering judgment on the jury’s verdict on the lesser offense, is the functional equivalent of a mistrial. Arizona purports to rely (Pet. 24) on the state court’s characterization of this Court’s decision in Green. But the
court’s discussion of Green was relevant only to that
court’s holding that a state statute did not bar the retrial—and is obviously irrelevant to the federal constitutional question presented here.
3. The Eighth Circuit’s decision in United States
v. Bordeaux, 121 F.3d 1187 (8th Cir. 1997), similarly
relies on the fact that a mistrial was declared. In that
case, the defendant was charged with the greater offense of attempted aggravated sexual abuse and with
the lesser-included offense of attempted abusive sexual contact by force. Id. at 1188. The jury returned a
verdict of guilty on the lesser offense, indicating that,
after expending “all reasonable efforts,” it was “unable
to reach a verdict” on the greater charge. Ibid. Before

16
sentencing the defendant on the lesser charge, however, the district court declared a mistrial on the
greater offense, vacated the conviction on the lesser offense after the government admitted that the jury instructions omitted an element of that crime, and ordered a new trial. United States v. Bordeaux, 92 F.3d
606 (8th Cir. 1996) (first appeal); Bordeaux, 121 F.3d
at 1189 (second appeal). After the Eighth Circuit held
on appeal that the district court lacked authority to
order a new trial on the lesser offense, the district
court sentenced the defendant on remand. 121 F.3d at
1189. In a second appeal, the defendant succeeded in
having his conviction on the lesser offense overturned
based on the conceded instructional error. Id. at 11891190. But the Eighth Circuit refused in that appeal to
hold that he could not be retried on the greater offense
on remand. Id. at 1190-1193. In so holding, the
Eighth Circuit held that “the fact that the district
court declared a mistrial based on a hung jury as to
the greater offense ma[de]” Green and Price v. Georgia,
398 U.S. 323 (1970), “inapplicable.” 121 F.3d at 1192.
The court explained that it viewed as “certain” that
“jeopardy did not terminate on the greater offense because the jury could not agree as to that offense and
the district court therefore declared a mistrial.” Ibid.
Applying the rule of Richardson, the court therefore
held that the defendant could be retried on both offenses on remand. Id. at 1193.2

2

In the first appeal, the court “vacate[d] the district court’s
order granting a mistrial on the greater offense.” 92 F.3d at 608.
But in the second appeal, the court treated the mistrial as dispositive. 121 F.3d at 1192-1193.

17
To be sure, the Eighth Circuit articulated its holding broadly at times, stating “we hold that where the
jury expressly indicates that it is unable to reach an
agreement on the greater charge, a conviction on a
lesser included offense does not constitute an implied
acquittal of the greater offense and presents no bar to
retrial on the greater offense.” 121 F.3d at 1193. But
elsewhere the court made clear that its holding depended on the fact that the district court had declared
a mistrial on the greater offense in the first trial. Id.
at 1192. Because no mistrial was declared in this case,
the holding of Bordeaux would not have applied had
the case arisen in the Eighth Circuit.3
4. The only decision Arizona identifies that does
conflict with the decision below is the Washington Supreme Court’s decision in State v. Glasmann, 349 P.3d
829 (Wash. 2015). In that case, the jury returned
guilty verdicts on two lesser-included offenses, leaving
the verdict forms blank as to the greater offenses after
being instructed to leave the forms blank if they could
not agree on a verdict. Id. at 830. The trial judge did
not declare a mistrial. After the defendant had his
convictions overturned on appeal, the State refiled the
original charges, including the greater offenses. Ibid.
The Washington Supreme Court held that the State
could proceed with a retrial on the greater charges. Id.
at 831. In a poorly reasoned decision, that court noted
this Court’s holdings in Green and Price that “a defendant’s jeopardy on a greater charge ends ‘when the
3

Arizona’s reliance (Pet. 20 n.2) on dicta in the Fifth Circuit’s
decision in United States v. Williams is misplaced because that
court held that the jury had not rendered a verdict on any counts,
including the lesser-included offenses. 449 F.3d 635, 646-649
(5th Cir. 2006).

18
first jury is given a full opportunity to return a verdict
on that charge and instead reaches a verdict on the
lesser charge.’” Ibid. (quoting Price, 398 U.S. at 329)
(internal quotation marks and brackets omitted). The
court then ignored that holding, concluding that the
jury’s silence on the greater offenses was the equivalent of a mistrial—and that retrial on the greater offenses was therefore allowed under the Double Jeopardy Clause. Id. at 833-834.
As the dissenting justice pointed out, the outcome
in that case should have been governed by “Green’s
second rationale,” which prohibits retrial on a greater
offense “when a jury fails to reach a verdict, either expressly or impliedly” “after the jury has had ‘a full opportunity to return a verdict and no extraordinary circumstances appeared which prevented it from doing
so.’” 349 P.2d at 835 (Stephens, J., dissenting) (quoting Green, 355 U.S. at 191). The dissenting justice explained that the majority’s position effectively held
that a jury that convicts on a lesser offense while indicating disagreement on the greater offense “hang[s] itself, id. at 834, a holding that flies in the face of this
Court’s cases holding that only a trial judge can declare a mistrial after making a finding of manifest necessity, id. at 838-840.
5. Arizona’s further contention (Pet. 25-27) that
the decision below is not “[c]onsistent” with decisions
of the Second, Fourth, Seventh, and Tenth Circuits, as
well as decisions of two additional state supreme
courts, is also mistaken.
The Second Circuit’s decision in United States ex
rel. Jackson v. Follette, presented sufficiently unusual
circumstances that the court itself declared the case to
be “sui generis.” 462 F.2d 1041, 1049 (2d Cir. 1972).

19
In that case, the defendant was tried in both of his consecutive trials with two different versions of first-degree murder—and the jury returned a verdict of guilty
on a different version in each trial, after being instructed to choose only one. Id. at 1043-1044. After
explaining that the two charged offenses were functionally equivalent—and, significantly, emphasizing
that there had been “no conviction of a lesser-included
offense”—the court found no double jeopardy violation.
Id. at 1049-1050. That set of circumstances casts no
light on how the Second Circuit would decide the question presented in this case. And in a case with facts
nearly identical to this one, the Second Circuit reached
a conclusion in accord with the decision below, holding
that a defendant could not be retried on first-degree
murder after a jury was instructed that it could choose
among, inter alia, first- and second-degree murder and
convicted him of second-degree murder. United States
ex rel. Hetenyi v. Wilkins, 348 F.2d 844, 847-848, 863
(2d Cir. 1965) (Marshall, J.).
The other circuit court decisions also do not support Arizona’s assertion of inconsistency. In United
States v. Ham, the Fourth Circuit expressly distinguished cases (like this one) in which a defendant was
convicted of second-degree murder and acquitted of
first-degree murder, explaining that the former conviction “established the existence of a fact (the state of
mind required for that offense) that was inconsistent
with his being guilty of first-degree murder.” 58 F.3d
78, 85 (4th Cir. 1995) (citation omitted). The Seventh
Circuit’s decision in Kennedy v. Washington is not relevant at all because it involves retrial of a defendant
only on an offense of which he was convicted in his first
trial. 986 F.2d 1129, 1131-1133 (7th Cir. 1993). And

20
the Tenth Circuit’s decision in United States v. Wood
involved retrial of a defendant on the only count of the
indictment on which he was tried and convicted—a situation that sheds no light on the question presented
here. 958 F.2d 963, 965, 967-968 (10th Cir. 1992).
The additional state supreme court decisions Arizona relies on are similarly inapposite. In State v.
Kent, the Supreme Court of Appeals of West Virginia
upheld retrial of a defendant on two different versions
of first-degree murder and specifically distinguished
the situation at issue here, i.e., retrial of a defendant
on a greater offense after he has been convicted on a
lesser-included offense. 678 S.E.2d 26, 28, 31-32
(W. Va. 2009). And the same was true in Commonwealth v. Carlino, 865 N.E.2d 767, 769, 774-775 (Mass.
2007).
B. Arizona contends (Pet. 28-29) that the decision below “align[s]” with the Sixth Circuit’s decision
in Terry v. Potter, 111 F.3d 454 (6th Cir. 1997). But
that decision also does not involve a jury that convicted a defendant on a lesser-included offense while
delivering no express verdict on a greater offense. Id.
at 455-456. As that court acknowledged, it involved a
situation like the one faced by the Second Circuit in
Jackson, supra, where the defendant was convicted in
successive trials of two different versions of the same
crime. Id. at 458. Unlike the Second Circuit, the Sixth
Circuit held that the second prosecution was prohibited by double jeopardy. Ibid. (noting disagreement
with Second Circuit). But the disagreement between
the Sixth and Second Circuits on a question not presented here is no reason to grant the petition in this
case.

21
C. The decision below does align with the Ninth
Circuit’s decision in Brazzel v. Washington, which held
in habeas proceedings that a defendant could not be
retried on a greater offense after the jury convicted
him of a lesser-included offense and returned no verdict on the greater offense. 491 F.3d 976, 978-980 (9th
Cir. 2007). The Ninth Circuit explained that, “[u]nder
federal law, an inability to agree with the option of
compromise on a lesser alternate offense does not satisfy the high threshold of disagreement required for a
hung jury and mistrial to be declared.” Id. at 984 (citing Washington, 434 U.S. at 509). Relying on Green
and Price, the court thus held that the defendant’s
“jeopardy on the greater charge had ended when the
first jury was given a full opportunity to return a verdict on that charge and instead reached a verdict on
the lesser charge.” Ibid. (quoting Price, 398 U.S. at
329). There, like here, the jury was given an “unable
to agree” instruction and opted for the lesser charge.
As Arizona points out, the court applied a deferential
habeas standard in that case, asking whether “[t]he
state court’s treatment of the jury’s ‘silence’ following
[the defendant’s] first trial as an implied acquittal
[wa]s a permissible application of governing law.” Id.
at 985.
*****
In sum, Arizona has identified only two decisions—the decision below and the Illinois Supreme
Court’s decision in Glasmann—that squarely address
the double-jeopardy rules that are applicable when a
jury convicts a defendant of a lesser-included offense,
the jury returns no verdict on the greater offense, the
district court does not declare a mistrial, and the conviction on the lesser-included offense is overturned on

22
appeal. Although the decision below does conflict with
Glasmann, that narrowest-possible conflict does not
warrant this Court’s intervention at this time.
II. The Decision Below Does Not Warrant
Review.
As explained, further review of the decision below
is not warranted because the conflict with other courts
is as shallow as possible. Review by this Court is unwarranted for the additional reasons that the question
presented does not arise with any frequency and the
decision below is correct.
A. As Arizona notes (Pet. 11), this Court has had
frequent occasion to address various aspects of the
Double Jeopardy Clause. And Arizona’s efforts to collect double-jeopardy decisions in attempting to establish a conflict warranting review illustrates that double-jeopardy questions in general do arise with some
regularity in state and federal courts. But the dearth
of cases addressing the precise question presented
here demonstrates that that question does not arise
with any frequency. Even the amicus brief on behalf
of other States does not contend that the question presented here arises with any frequency—indeed, not
one of the 11 amici States identifies even one decision
from one of its own courts raising this issue. This
Court “does not have time to give full consideration to
all cases that present interesting issues.” Stephen M.
Shapiro et al., Supreme Court Practice 4-33 (11th ed.
2019). If the issue does begin to arise with greater frequency going forward, that will result in additional decisions from federal courts of appeals and state courts
of last resort—and, inevitably, deeper analysis of the
issue. This Court should defer consideration of the

23
question presented until a deeper conflict arises, if
ever.
B. This Court’s review is unnecessary because
the decision below is correct.
The decision below represents a straightforward
application of this Court’s double-jeopardy precedents.
As the Court has explained, in Green and Price, the
Court “held that the Double Jeopardy Clause is violated when a defendant, tried for a greater offense and
convicted of a lesser included offense, is later retried
for the greater offense.” Blueford v. Arkansas, 566
U.S. 599, 608 (2012). That is exactly what happened
here. Arizona misstates the holdings of Green and
Price in contending (Pet. 2) that those holdings apply
only when the jury “implicitly” acquits a defendant on
a greater charge while convicting on the lesser charge.
To the contrary, the Court expressly declared that
double jeopardy barred retrial on the greater offense
upon conviction of the lesser offense even if the silent
verdict meant the jury was unable to agree as to the
greater offense—because the government had a full
and fair opportunity to present its case on the greater
charge and no mistrial was declared. Green, 355 U.S.
at 190-191.
The Court in Green relied heavily on the fact that,
“[a]fter the original trial, but prior to his appeal, it is
indisputable that [the defendant] could not have been
tried again for first degree murder” after the jury convicted him of second-degree murder and returned no
verdict on first-degree murder—and that the same
would have been true if the defendant’s appeal of his
conviction on second-degree murder had been unsuccessful. 355 U.S. at 191; Price, 398 U.S. at 329. Arizona conceded below, see Pet. App. 12, that the same

24
is true here, i.e., that the fact that the jury indicated it
could not reach a verdict on first-degree murder rather
than indicating nothing on that count had no effect on
whether Martin faced continuing jeopardy on first-degree murder absent a successful appeal. Arizona instead argues that Martin subjected himself to renewed
jeopardy on the charge of first-degree murder—that he
somehow waived his right to assert a double-jeopardy
defense to that charge—by successfully appealing his
flawed conviction on second-degree murder. This
Court rejected exactly that reasoning in Green, explaining that, “[w]hen a man has been convicted of second degree murder and given a long term of imprisonment”—as Martin was here—“it is wholly fictional to
say that he ‘chooses’ to forego his constitutional defense of former jeopardy on a charge of murder in the
first degree in order to secure a reversal of an erroneous conviction of the lesser offense.” 355 U.S. at 191192. “In short,” the Court held, “he has no meaningful
choice” and “it cannot be imagined that the law would
deny to a prisoner the correction of a fatal error, unless
he should waive other rights so important as to be
saved by an express clause in the Constitution of the
United States.” Id. at 192.
Arizona offers no basis for finding a valid waiver
here but not in Green, based on a slight difference in
jury forms. Arizona stresses (Pet. 32) that it is entitled
to a full and fair opportunity to secure a verdict on the
charge of first-degree murder. The United States argued the same in Green—and this Court held that the
government had that opportunity when the jury “was
given a full opportunity to return a verdict and no extraordinary circumstances appeared which prevented
it from doing so.” 355 U.S. at 191. It is therefore

25
“clear, under established principles of former jeopardy, that [Martin’s] jeopardy for first degree murder
came to an end when the jury was discharged so that
he could not be retried for that offense.” Ibid.
Arizona relies on this Court’s decisions in cases
like Richardson, which hold that a defendant may be
retried on a charge when a jury cannot reach a verdict
based on an actual deadlock and the trial court declares a mistrial based on manifest necessity. But
those decisions do not apply here where the trial court
did not determine that the jury had reached an actual
deadlock, did not declare a mistrial, and made no inquiry into whether the manifest-necessity standard
was satisfied. See Pet. App. 9-10. Unlike in Richardson and cases like it, here the jury did reach a verdict
and the trial court did not declare a mistrial, make a
finding of deadlock, or discharge the jury without entering a verdict. In these circumstances, the rule of
Green, not Richardson, applies. This Court held as
much in Green itself, relying on the absence of a finding of “extraordinary circumstances” that “prevented”
the jury from returning a verdict. 355 U.S. at 191.
The Arizona Supreme Court correctly held that
here, as in Green and Price, Martin’s jeopardy on the
charge of first-degree murder was terminated when
the jury convicted him of the lesser-included offense of
second-degree murder. No further review of that decision is warranted.

26
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be denied.
Respectfully submitted,
Aaron M. Demke
Legal Advocate Attorney
Jill L. Evans
Deputy Legal Advocate
Attorney
MOHAVE COUNTY LEGAL
ADVOCATE OFFICE
316 N. 5th Street
Kingman, AZ 86402
(928) 814-4557
April 6, 2020

Sarah E. Harrington
Counsel of Record
Erica Oleszczuk Evans
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
sh@goldsteinrussell.com

